Circuit Court for Baltimore City
Consolidated Case Nos.: 24-C-17-003720 and
24-C-17-003638

UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 2685
September Term, 2018
KAREN V. MCINTYRE, ET AL.
v.
KEVIN L. MCINTYRE, ET AL.
Fader, C J.,
Leahy,
Eyler, Deborah S.,
(Senior Judge, Specially Assigned),
JJ.
Opinion by Leahy, J.
Filed: September 3,2020
♦This is an unreported opinion, and it may not be cited in any paper, brief, motion, or other
document filed in this Court or any other Maryland Court as either precedent within the
rule of stare decisis or as persuasive authority. Md. Rule 1-104.

A1

— Unreported Opinion —
This appeal arises out of two consolidated cases filed in the Circuit Court for
Baltimore City. On July 11, 2017, Kevin L. McIntyre filed a petition, and later a
supplemental petition, requesting that die court assume jurisdiction over the Charles T.
McIntyre Irrevocable Trust (“the Trust”). Several days later, Karen V. McIntyre and
Carolyn E. Wilson, (also, “Appellants” or “Plaintiffs”), filed a complaint, and later an
“Amended Complaint/Petition for Removal of Fiduciary,” against appellee, Kevin L.
McIntyre, individually and in his capacity as trustee of the Trust, and Ronald E. McIntyre,1
individually. In the complaint, Plaintiffs alleged that: 1) Kevin induced their father,
Charles T. McIntyre, to create the trust; 2) induced their father to sign a deed conveying
his house to the trust; 3) failed to meet other duties required ofhim by the trust; 4) “engaged
in misconduct inconsistent with his duties as a fiduciary,” sometimes in concert with his
brother Ronald; and 5) failed to provide adequate accountings to the beneficiaries of the
trust. The cases were consolidated by order of the circuit court on January 18,2018.
A bench trial was held from August 22-24,2018. At the conclusion of the evidence
presented by Karen and Carolyn McIntyre, the court entered judgment in favor of Ronald
E. McIntyre and Kevin L. McIntyre, individually. In a written order filed on August 24,
2018, the court denied the request that Kevin L. McIntyre be removed as trustee, entered
judgment in favor of Kevin L. McIntyre, as trustee, assumed jurisdiction over the Trust,
and ordered that a final accounting be submitted. Karen V. McIntyre and Carolyn E.

Ronald declined to hire counsel or defend his case at trial. He similarly did not
participate in this appeal.

A2

— Unreported Opinion —
Wilson filed a motion for new trial. They filed a timely appeal from the court’s judgment
after the motion was denied.
Appellants, who are proceeding pro se, present three questions for our consideration
which we have rephrased as follows:2
I.

Did the circuit court err in granting judgment in favor of Ronald E.
McIntyre?

II.

Did the circuit court err in granting judgment in favor of Kevin L.
McIntyre individually?

III.

Did the circuit court err in granting judgment in favor of Kevin L.
McIntyre as Trustee of the Charles T. McIntyre Irrevocable Trust?

For the reasons set forth below, we shall affirm the judgments of the circuit court.
FACTUAL BACKGROUND
The following factual history is distilled from the testimony offered at the bench
trial, as well as the documents submitted and accepted into evidence.

2 Appellants’ present their questions as follows:
“1. Did Trial Court err in granting Defendants’ oral Motion for Judgment,
offered on the record in open court on August 23, 2018, dismissing the
complaint brought against Ronald E. McIntyre, based on the credibility of
his testimony stating that there was no evidence of his role as any type of
trustee.”
“2. Did Trial Court err in granting Defendants’ oral Motion for Judgment,
offered on the record in open court on August 23, 2018, dismissing the
complaint brought against Kevin L. McIntyre, in his individual capacity.”
“3. Did Trial Court err in entering a judgment on October 5,2019 in favor of
Kevin L. McIntyre, as trustee of the Charles T. McIntyre Irrevocable Trust,
finding that 1) he in no way breached his duties as fiduciary of the trust, and
2) allegations of fraud were baseless.”
2
A3

— Unreported Opinion —
This appeal has its genesis in a family dispute between some of the children of
Charles T. McIntyre (“Mr. McIntyre”) regarding the Trust. Mr. McIntyre, a resident of
Baltimore City, died on October 27, 2012. He had seven children:3 Carolyn Wilson,
Charles E. McIntyre, Edmond T. McIntyre, Ronald E. McIntyre, Vernon R. McIntyre,
Karen V. McIntyre, and Kevin L. McIntyre. With the exception of Charles, who pre­
deceased his father, the children were adults at all times relevant to this appeal.4
Prior to his death, Mr. McIntyre owned a home at 3623 Columbus Circle in
Baltimore City and a 1998 Toyota sedan. He had bank accounts and certificates of deposit
(“CD”s) at Bank of America and Freedom Federal Credit Union. At some point prior to
2012, Mr. McIntyre gave powers of attorney to Vernon and Karen, and, in about 2010,
Vernon “assumed the role of primary caretaker” for his father. Vernon “orchestrated the
in-home health care” and paid his father’s bills. At some point, Vernon began refusing to
allow his siblings access to their father. According to Karen, Kevin asked Vernon to
provide an accounting of their father’s money, but Vernon refused and, when pressed,
stated that he “was going to remove himself as power of attorney.”
The McIntyres held a family meeting, in July 2012, at which Mr. McIntyre
“indicated that he was very dissatisfied with Vernon.” Vernon responded, “Well, then I’m

3 Meaning no disrespect, we shall refer to each of Mr. McIntyre’s children by their
first names for clarity.
4 Edmond T. McIntyre suffered from a mental disability and, after a guardianship
proceeding, had an attorney appointed to serve as the guardian of his property. He died on
or about April 27, 2017. Vernon R. McIntyre was disinherited by his father and excluded
from the Trust
3
A4

— Unreported Opinion —
done.” At the time of the meeting, Mr. McIntyre’s health had deteriorated to the point
where he required constant care. According to Kevin, the home on Columbus Drive was
not clean, “was in disrepair,” and “was not a suitable place for someone to live, particularly
someone” in his father’s condition. He testified that the house bad “rodent droppings” and
was “insect infested.” In addition, there had been a sewer back up in the basement that
necessitated repairs and the removal of a portion of the paneling. Mr. McIntyre’s children
discussed their father’s situation and agreed that it would be best for him not to live alone
and to stay with Kevin. The children made arrangements for in-home health care to be
provided for Mr. McIntyre at Kevin’s house.
Carolyn testified that the agreement was for Mr. McIntyre to spend one week with
Kevin, and then the next week at his own home in Baltimore City, and that they would
continue to switch “back and forth” in that manner. Karen testified that she “talked” Kevin
into taking Mr. McIntyre out of the house “for a period of time” so that they could change
the locks and “get Vernon’s power of attorney revoked.” She believed that when her father
could feel secure in his home, he would return there. In September 2012, Karen learned
from Ronald that he and Kevin had made a joint decision not to let their father return to his
own home. Kevin acknowledged that Karen had “some angst” about their father staying
at Kevin’s home rather than at his own house. Nevertheless, he and Karen were working
together to care for Mr. McIntyre, and both had powers of attorney and access to their
father’s bank accounts. Karen testified that she had the locks changed at her father’s house,
and she and Carolyn made arrangements for Mr. McIntyre to sign a notarized form to
revoke Vernon’s power of attorney and filed it with the Register of Wills.
4
A5

— Unreported Opinion —
At some point, Mr. McIntyre decided to look into creating an irrevocable trust
Kevin and Mr. McIntyre met with attorney Cheryl Chapman Henderson, who would later
become a witness in Plaintiffs’ case-in-chief, and who drafted the documents to establish
the Trust. Ms. Henderson testified that the Trust was established for the puipose of
allowing Mr. McIntyre “to qualify for the Veterans Aid and Attendance benefit” that “was
available but for his resources.” Ms. Henderson met with Mr. McIntyre, reviewed the
provisions of the trust instrument with him “section by section,” took steps to make sure
he understood the provisions, and answered his questions. Mr. McIntyre initially intended
for Karen and Kevin to serve as joint trustees, but Karen failed to attend two meetings to
discuss and execute documents. According to Kevin, Mr. McIntyre ‘‘became very upset,
disappointed,” and “angry,” and decided that Kevin alone would serve as the trustee.
The Trust was established on September 17,2012. On the same date, the deed for
Mr. McIntyre’s home on Columbus Drive was transferred to the Trust, and Mr. McIntyre
executed a new will. The Trust was funded with $10, a formality due to the fact that the
Trust was required to be funded at the time of execution, and an assignment of tangible
personal property. Ms. Henderson also prepared a funding table that listed the property
that was to be included in the Trust. The funding table included, among other things^
treasury bonds having a value of $50,000. At trial, Ms. Henderson testified that she did
not know where those bonds were located, just that Mr. McIntyre reported to her that he
had them. Mr. McIntyre also reported that he had a term life insurance policy with Federal
Employee’s Group Life Insurance (“FEGLI”), through his employment with the federal
government.
5
A6

— Unreported Opinion —
Ms. Henderson testified that the puipose of setting up the irrevocable Trust was, in
part, so that Mr. McIntyre’s trustee and/or children would help take care of him She
explained:
At that time, he was - he had a caregiver. It was expected that the cost of
caring for him would increase and so in order to completely separate himself,
Mr. McIntyre, which he had to do, he was well aware of that, I advised Kevin
McIntyre, trustee, that to the extent that distributions would be made, and the
trust is designed so that distributions could be made to any one of the named
lifetime beneficiaries, as a practice, we want to make sure that those funds
are going to be - to go to someone who would be advancing funds for the
grantors or Mr. McIntyre’s care.
So we—I advised [Kevin] to set up a—an account in his name separate
from his other accounts, so that if he made distributions to himselfj so that
he could reimburse himself for any care costs, that he’d have it in a separate
account
Typically, when we prepare these types of trusts, we want to make sure that
the person who’s receiving the funds will use those funds for the benefit of
the grantor, although they were legally not required to, and so it is important
to identify someone who is going - that we know is going to use those funds
for Mr. McIntyre. Well, reimburse or advance for Mr. McIntyre’s care,
although they’re not legally required to.
Ms. Henderson acknowledged that there were mistakes on certain forms that were
filed with respect to the Trust. For example, on the Land Instrument Intake Sheet, a box
was checked indicating that the house was being conveyed “father to son” and that the
property being conveyed was the “grantee’s” principal residence. The form properly
reflected, however, that the house was being conveyed to “Kevin L. McIntyre, Trustee.”
Ms. Henderson testified that she did not think the forms were capable of dealing with
irrevocable trusts and that the box indicating a transfer from “father to son” might have
been correct because Kevin was the trustee.
6
A7

— Unreported Opinion —
After being appointed trustee, Kevin opened three trust accounts at Bank ofAmerica
— a checking account, a savings account, and a money market account On the advice of
Ms. Henderson, he also opened a joint checking account with Ronald, at Bank of America,
ending in -3123. The Bank of America account was opened for the purpose of paying Mr.
McIntyre’s expenses. Ronald testified that the account was to be used for his father’s
personal care and incidentals and that he was a joint owner so that if Kevin became
unavailable, he would be able to access the money “for the purposes of caring for [his]
father.” Kevin testified that the account “was not used for any personal expenses for
[himself] or for [his] brother or for any of [their] relatives,” and that he provided source
materials and documents for all expenses paid from the account to Jonathan SwerdlofF, the
accountant for the Trust.
In August 2012, Karen learned that her father had a balance of $165,000 in an
account at Freedom Federal Credit Union and $163,000 in an account at Bank of America.
Later, she learned that another $45,000 CD at Bank of America had been withdrawn.
Thereafter, she received a copy of the Trust and her father’s Will. As a result, she requested
that Kevin provide financial information to corroborate his accounting of the Trust
During the time that Mr. McIntyre was staying at Kevin’s house, Karen hired Phil
Hart to renovate the kitchen and do some plumbing work at her father’s house. On about
October 16,2012, she withdrew $2,200 from Mr. McIntyre’s checking account to pay the
deposit to Mr. Hart. When Mr. McIntyre became aware of the work being done at his
home, he was “surprised,” expressed displeasure, and requested that the work stop. He
asked Kevin to move all of the funds out of his checking account to which Karen had
7
A8

— Unreported Opinion —
access. Kevin withdrew $6,901.26 from Mr. McIntyre’s checking account and deposited
that sum in a new account.
After Mr. McIntyre died, Vernon opened an estate and filed a will. There was
evidence that Vernon had posted a bond as personal representative, but Kevin testified that
he was not aware that a bond had been posted. A short time later, Kevin went to the
orphans’ court and filed the will that had been prepared at the time the Trust instrument
was executed, which superseded the will filed by Vernon. It is undisputed that, after Mr.
McIntyre’s death, Kevin closed the joint account that he opened with Ronald.
Because there was some concern that Vernon would challenge the Trust, Kevin
waited until the 3-year statute of limitations had run before making a distribution. Karen
disagreed with that version of events and testified that the concern was that Vernon would
contest the will, not the Trust. Karen took the position that there was no order mandating
that Kevin wait for 3 years before making the initial distribution from the Trust.
Plaintiffs presented evidence that, on February 14, 2013, Vernon took $6,901.26
from his father’s checking account ending in -8361 at Freedom Federal Credit Union. He
also took $1,232.10 from Mr. McIntyre’s savings account ending in -1261. Karen thought
that Kevin should pursue Vernon for the return of that money. Kevin testified that, after
receiving advice from counsel, he decided it was not prudent to pursue Vernon for such a
small percentage of the total value of the Trust He explained that to do so would be
expensive and difficult because Vernon had moved without leaving a forwarding address,
had resisted attempts by family and friends to contact him, and it would be difficult to
collect a judgment against him. Kevin did not include the $8,142.55 on the accounting he
8
A9

— Unreported Opinion —
prepared on November 15, 2016, but he did include it on an accounting prepared on
September 30, 2017, because his sisters had raised it as an issue in die instant litigation.5
Kevin provided an accounting of the Trust to Karen in March and July 2013 and
bank statements in April 2013. Thereafter, on or about September 5, 2013, Karen and
Carolyn filed a tort action against Kevin and Ronald in the Circuit Court for Baltimore
City, Case No. 24-C-l 3-5487, seeking virtually the same relief they seek in the instant case
and five million dollars in damages. On November 5, 2013, the day before the hearing
Kevin’s attorney provided Karen with copies of 44 bank statements from die trust accounts
at Bank of America and the joint bank account ending in -3123. The court determined that
Kevin, as trustee, had provided a sufficient accounting, and the tort action was dismissed.6
In 2014, Kevin, as trustee, engaged a real estate agent who suggested that certain
repairs be made to Mr. McIntyre’s house before it was listed for sale. The house had been
configured as a duplex, and, after obtaining counsel from the real estate agent, Kevin
decided to convert die house back into a single-family home. He considered selling die
house “as is,” but chose not to do so because the other houses in die neighborhood were
selling for $100,000 to $125,000, and the best offer he had received was in the range of
$55,000 to $60,000. Karen disagreed. She felt it would have been better to sell die house

5 It appears that Karen may have filed an action in the Orphan’s Court for Baltimore
City seeking to recover the money taken by Vernon.
6 In the instant case, the circuit court ruled that the court had already “found that
there was a sufficient accounting prior to November 6,2013, and so I’m not going to go
back and unfind it”
9
A10

— Unreported Opinion —
“as is.” According to Karen, her father “wanted the house sold as is.” Karen took the
position that “a whole lot of money went into the house, including additional fees, gas and
electric bill[s], insurance bills, accounting fees, tax[es],” and that “all that money [that] was
spent during the time that the house was improved... could have been distributed to the
benefit of the beneficiaries.”
Kevin entered a new contract with Phil Hart to complete the kitchen renovation and
perform additional work on the house. After consulting a real estate agent and a home
inspector, Kevin also entered agreements with other contractors, including Clayton
Stevenson, to perform additional work to prepare the house for sale. After the work was
completed, Kevin retained a home inspector, who suggested some additional repairs, and
an appraiser, who appraised the property at $110,000. The total amount spent on the work
to prepare Mr. McIntyre’s house for sale was $49,629.13. The proceeds from the sale of
the house totaled $100,441.87.
Kevin made an initial distribution from the Trust in December 2015, and each of
Mr. McIntyre’s beneficiaries received $30,000. In November 2016, Kevin attempted to
make a final distribution. On or about November 19,2016, he provided his siblings with
a final accounting and a release that was required to be signed before the final distribution
would be made. That was die first accounting after the November 6,2013 hearing in the
tort action filed by Karen and Carolyn. Karen refused to sign die release even though she
was aware that the Trust instrument allowed Kevin to request that she sign one. She
requested that Kevin “prove and verify” the figures in the accounting. She would “not
agree to sign an accounting that’s unverified, uncorroborated, and that mandate[d] that
10
A11

— Unreported Opinion —
[she] relinquish any right for litigation, any future litigation[.]” Karen complained that
Kevin never invited her or Carolyn to his house, opened his books, or made-, records
available for inspection.
Jonathan Swerdloff, a certified public accountant and investment advisor, prepared
account summaries and tax returns for the Trust. He testified that the only income for the
Trust was the interest from bank accounts. Mr. Swerdloff included on the general ledger
an entry dated September 30, 2017, showing that Vernon owed the Trust an estimated
amount of $8,142.55 as well as information about the joint bank account with Ronald. He
testified that Kevin provided source documents for each transaction. In 2012, about eleven
expenses were paid from that account including the cost of Mr. McIntyre’s in-home health
care worker and funeral expenses. The following year, expenses from that account
included Baltimore Gas and Electric, attorneys’ fees, payments to Kevin Timmons who cut
the grass at Mr. McIntyre’s home, contractor Phil Hart, insurance, and various other
expenses for the property. Kevin testified that he was not aware of any treasury or war
bonds owned by his father, nor was he aware of any FEGLI life insurance.
Circuit Court’s Rulings
At the close of Karen and Carolyn’s case, the trial court granted judgment in favor
of Ronald and Kevin individually. At the conclusion of Kevin’s case, the trial court, ruling
from the bench, concluded that it was “the family dynamic” that was “driving this
litigation, not so much an honest belief that Mr. Kevin McIntyre has done anything
untoward[.]” The court, applying the preponderance of the evidence standard, reviewed
each paragraph of the amended complaint/petition for removal of fiduciary, and mad*
11
A12

— Unreported Opinion —
findings of fact The court found no factual or legal basis to support Karen and Carolyn’s
request to remove Kevin as the trustee or to appoint a substitute trustee. The court denied
their requests to appoint an auditor or examiner, for an equitable accounting, for
compensatory and exemplary damages, and for attorney’s fees, and entered judgment in
favor of Kevin, in his capacity as trustee. The court granted Kevin’s petition for
assumption of jurisdiction of the Trust and ordered him to provide a final accounting. The
court’s rulings from the bench were set forth in a written order filed on August 24,2018.
On September 4,2018, Karen and Carolyn filed a motion for new trial which was denied
on October 5,2018.
This appeal timely followed.
Standard of Review
The trial court granted judgment in favor of Ronald and Kevin, individually,
pursuant to Maryland Rule 2-519(b), which provides that, “[w]hen a defendant moves for
judgment at the close of the evidence offered by the plaintiff in an action tried by die court,
the court may proceed, as the trier of fact, to determine the facts and to render judgment
against the plaintiff or may decline to render judgment until the close of all die evidence.”
In such cases, we review the trial court’s judgment in accordance with Maryland Rule 8131(c). Cattail Assocs., Inc. v. Sass, 170 Md. App. 474, 486 (2006). See also Boyd v.
Bowen, 145 Md. App. 635,650 (2002).
As this case was tried without a jury, we “will review the case on both the law and
the evidence.” Md. Rule 8-131(c). We “will not set aside the judgment of the trial court
on the evidence unless clearly erroneous and will give due regard to the opportunity of the
12
A13

—Unreported Opinion —
trial court to judge the credibility of the witnesses.” Id. “If any competent material
evidence exists in support of the trial court's factual findings, those findings cannot be held
to be clearly erroneous.” Figgins v. Cochrane, 403 Md. 392,409 (2008). Absent an abuse
of discretion, “we may not substitute our judgment for that of the fact finder, even if we
might have reached a different result[.]” Gordon v. Gordon, 174 Md. App. 583,626 (2007)
(citation omitted). We must also consider evidence produced at the trial ‘“in a light most
favorable to the prevailing party[.]’” Estate ofZimmerman v. Blatter, 458 Md. 698, 717
(2018) (citation omitted). On the other hand, we conduct an independent appraisal of the
trial court’s application of the law. L.W. Wolfe Enters., Inc. v. Md Nat'l Golf, L.P., 165
Md. App. 339, 344 (2005) (“[W]here the order involves an interpretation and application
of Maryland statutory and case law, our Court must determine whether die lower court’s
conclusions are ‘legally correct’ under a de novo standard of review.”) (citation omitted).
DISCUSSION
I.
Ronald
a. Parties’ Contentions
Appellants contend, first, that the trial court erred in granting judgment in favor of
Ronald, individually. Specifically, they assert that Ronald’s testimony at trial “provided
clear and convincing evidence” that he “willfully, deliberately and fraudulently” concealed
from them the existence of “both the checking and money market accounts,” that he was
“fully aware of the illegal purpose for which these accounts were opened,” and that he
“serve[d], fraudulently, in the role of constructive trustee.” They assert that Ronald acted
13
A14

— Unreported Opinion —
as a constructive trustee and that he and Kevin conspired to commit fraud by withholding
knowledge of the checking account ending in -3123. They also argue that the trial court
erred in granting judgment in favor of Ronald because he was not represented by counsel
and failed to initiate his own motion for judgment at the close of Plaintiffs’ case. Kevin
responds that the trial judge correctly found that there was no evidence in the record to
support an assertion that Ronald owed any duty to the Appellants with regard to the trust
accounts.
b. Analysis
In their amended complaint/petition for removal of fiduciary, Appellants alleged
that “Kevin, sometimes in concert with his brother/defendant Ronald . . . engaged in
misconduct inconsistent with his duties as fiduciaryf.]” The specific allegations of
misconduct included, but were not limited to: failing to expeditiously liquidate the Trust
corpus; misappropriating Trust funds for the supposed purpose of improving Mr.
McIntyre’s house in anticipation of its sale; selling the house “below value”; transferring
funds from Trust accounts to Kevin’s “own private and separate account.^ sometimes in
concert with Ronald”; converting Trust funds and property to the personal use of Kevin
and Ronald; waste of Trust assets; failing to provide an accounting; and deceiving
appellants as to the administration of the Trust both before and after Mr. McIntyre’s death.
Appellants sought, among other things, a money judgment against Ronald and exemplary
damages “to the extent that the court finds willful malfeasance on the part of’ Ronald.
At the close of die Appellants’ case, the trial court granted judgment in favor of
Ronald stating that there was no evidence that he served as a trustee. In doing so, the court
14
A15

— Unreported Opinion —
credited his testimony that he did not exercise control over the bank account and
“understood that his name was on there solely so that if anything happened and his father
needed care he could step up and do what needed to be done with respect to m»lring sure
that dad’s monthly needs were met.”
Appellants’ complaint/petition to remove fiduciary did not set forth a claim for
fraudulent concealment and, as a result, that claim is not properly before us.7 Md. Rule 8131(a) -(“Ordinarily, the appellate court will not decide any other issue unless it plainly
appears by the record to have been raised in or decided by the trial court[.]”).
We conclude that the trial court’s findings of fact with regard to the claims against
Ronald were not clearly erroneous. Ronald testified that he was aware of the joint checking
account and that Kevin opened it with his consent, in October 2012, prior to the death of
their father. Ronald acknowledged that in his answers to interrogatories, he stated that the
purpose of the checking and money market accounts “was to assist Kevin with

7 Even if such a claim had been included in the complaint, appellants would not
prevail. The essential elements of a claim of fraudulent concealment include:
(1) the defendant owed a duty to the plaintiff to disclose a material fact; (2)
the defendant failed to disclose that fact; (3) the defendant intended to
defraud or deceive the plaintiff; (4) the plaintiff took action in justifiable
reliance on toe concealment; and (5) toe plaintiff suffered damages as a result
of toe defendant’s concealment
E.g., Biondell v. Littlepage, 413 Md. 96, 119 (2010) (internal quotations and emphasis
omitted). A plaintiff bears toe burden of establishing toe elements of fraudulent
concealment “by clear and convincing evidence.” Md Envtl. Trust v. Gaynor, 370 Md. 89,
97 (2002). We need not examine all of toe required elements of fraudulent concealment
because Appellants failed to show that they suffered damages as a result of any
concealment by Ronald.
15
A16

— Unreported Opinion —
consolidation of all known assets for management and accounting purposes.” He clarified,
however, that his answer “mischaracterized” the intent in creating the checking account
and that the checking account was not intended “to become a repository for all ofthe assets”
of the Trust. Although his name was included on the account, Ronald did not have any
involvement with it, did not sign any checks, did not conduct any electronic transactions,
did not receive any money from it, and had no knowledge as to what payments were made
from it.
Ms. Henderson testified that she advised Kevin to open “an account in his name
separate from his other accounts so that if he made distributions to himself... he could
reimburse himself for any care costs[.]” Although the Trust was “designed so that
distributions could be made to any one of the named lifetime beneficiaries,” die idea was
that the funds would go to someone who would be advancing funds for Mr. McIntyre’s
care. The checking account was set up so that either Kevin or Ronald could reimburse
themselves for any care costs incurred on behalf of their father. Kevin similarly testified
that the checking account was funded by the trust to pay his father's living expenses and
expenses related to the Trust. After his father’s death, the balance remaining in the
checking account was transferred back into a trust account Additionally, the accountant,
Mr. SwerdlofF, included information about the checking account on the general ledger and
testified that Kevin provided source documents for each transaction.
There is no evidence in the record before us that Ronald engaged in fraudulent
concealment, took any money from the checking account, or was included as a joint owner
of the checking account for an improper purpose. Nor is there any evidence that he acted
16
A17

— Unreported Opinion —
as a constructive trustee or participated in a conspiracy. The record is also devoid of
evidence that any hinds from the checking account were used improperly.8 Although
Appellants challenge Ronald’s credibility, the trial court credited his testimony, and we
must give due regard to the opportunity of the trial court to judge his credibility. Md. Rule
8-131(c). For all these reasons, we find no error in the trial court’s decision to grant
judgment in favor of Ronald.9

8 Even assuming, arguendo, that it was improper for Kevin and Ronald to put money
from the Trust accounts into the checking account, the evidence showed that the money
was used for the care of Mr. McIntyre and Trust-related expenses and, following Mr.
McIntyre’s death, the balance was transferred to a Trust account.
9 Appellants complain that throughout the case, Ronald, who appeared below and
on appeal in proper person, relied on the filings and arguments offered by counsel for
Kevin. Without offering any legal citation, they argue that the motion for judgment with
respect to Ronald “should have been struck down by Trial Court, as it was not legally and
properly offered.” That argument is completely without merit
In his argument in support of the motion forjudgment, counsel for Kevin mentioned
the failure of evidence as to Ronald in passing, stating:
What is more, there’s no evidence of individual liability on the part of
Mr. Kevin McIntyre. The Court ruled, note, that he has been sued
individually and as the Trustee. And for that matter, there’s no evidence of
any individual liability on behalf of Mr. Ronald McIntyre. The inclusion of
Mr. Ronald McIntyre seems to be only because his name appears on that
account ending in 3123. What the objection about that account is I don’t
know.
Before announcing its decision at the close of the case, the trial court specifically
addressed this issue, stating:
I’ve excused Mr. Ronald McIntyre from attending today and that was
appropriate considering die fact that I granted judgment in his favor upon a
motion really lodged by Mr. Kevin McIntyre which I found to be applicable
to Mr. Ronald McIntyre and through that ruling judgment was granted to Mr.
17
A18

— Unreported Opinion —

n.
Kevin, as Individual
a. Parties* Contentions
Appellants contend that the trial court erred in granting judgment in favor of Kevin,
individually.

They argue that they “presented a substantial body of evidence” to

demonstrate that, acting in his individual capacity, Kevin engaged in “fraudulent self­
dealing, fraudulent concealment, constructive fraud, and conspiracy to commit fraud.” We
note that Appellants’ amended complaint/petition for removal of trustee did not specifically
set forth claims of fraud or conspiracy. Nevertheless, in support of their arguments,
Appellants assert that Kevin: 1) “secretly liquidated 4 CDs, amounting to over $45,000,
and did not deposit them into any known account in [Mr. McIntyre’s] name, prior to the
creation of the [T]rust”; 2) wrongfully “withdrew $295,000+ from [Mr. McIntyre’s]
financial accounts to illegally fund [T]rust accountsQ”; 3) "transferred $6,901.26 of [Mr.
McIntyre’s] funds into a new [Bank of America] account he himself openedQ”; 4)
misappropriated funds by “acting in his capacity as trustee to a) fraudulently transfer title
of [Mr. McIntyre’s] residence to himself, and b) transfer trust funds to Ronald’s and his
personal checking account,” and spend “over $49,000 of jTJrust funds to improve the
house”; 5) “acting in [his] individual capacity ... had the house improved without

McIntyre and there’s nothing outstanding with respect to him at this point in
time.
Given the lack of evidence to support any claim against Ronald, the trial court acted
properly in granting judgment in his favor at the close of Appellants’ case.
18
A19

— Unreported Opinion —
executing any legally recognizable contractual agreements!]”; and 6) committed fraudulent
concealment when he “did not disclose all of [Mr. McIntyre’s] property when he probated
his estate,” and instead “filed a Schedule B form, and opened a small estate in [Mr.
McIntyre’s] name, thereby concealing the sum total of all [Mr. McIntyre’s] property from
probate.
Kevin responds that all the actions alleged above were proper and done with the
knowledge and permission of Mr. McIntyre or under the powers granted to him as trustee.
b. Analysis
The evidence at trial established that three of Mr. McIntyre’s CDs, totalling
$45,239.81, were closed on September 27, 2012 and deposited into a new CD. That CD
was combined with another CD in the amount of $50,779.99 and added to additional funds,
all of which were deposited into the Trust account on September 27, 2012. hi turn, the
money from Mr. McIntyre’s several bank and credit union accounts was deposited into the
Trust account during his lifetime, and Appellants did not dispute that a combined total of
$295,045.54 was deposited into the Trust account. There is no evidence to support
Appellants’ contention that funding the Trust account with the $295,045.54 was illegal.
Kevin acknowledged that he withdrew $6,901.26 from Mr. McIntyre’s checking
account ending in -9690 and deposited it into a checking account ending in -8361. The
evidence established that the Bank of America accounts belonged to Mr. McIntyre. Karen
admitted that on October 12,2012, she withdrew money from her father’s account to pay
for the contract she executed with Mr. Hart. Kevin testified that he moved the money to
the account ending in -8361 at his father’s request because he was upset that Karen hqd
19
A20

— Unreported Opinion —
paid Mr. Hart to perform home improvement work without his knowledge or consent and
wanted his money out of Karen’s reach.
There is no support in the record for Appellants’ allegation that Kevin either
individually or as trustee, transferred title of Mr. McIntyre’s residence to himself, that he
misappropriated the money spent on home improvements in anticipation of the sale of the
property, or that he had the house improved without executing “any legally recognizable
contractual agreements.” The deed to the house was executed on the same day that the
Trust was executed. The Trust was funded by 1) $10, which was listed on Schedule A of
the Trust instrument; 2) the house, which was conveyed to Kevin as trustee, and 3) personal
property as listed in an assignment of personal property executed by Mr. McIntyre.
Kevin never held title to the house in his individual capacity. The evidence
established that Kevin entered into several contracts for work in preparation for the sale of
the home, and the record is devoid of evidence to show that the various contracts were not
“legally recognizable.” When the home was sold, the proceeds were deposited into a Trust
account As for Kevin’s decision to renovate the house in anticipation of the sale, § 10.16
of the Trust instrument specifically authorized Kevin, as trustee, inter alia, to “manage,
alter, improve, and in general deal in and with real property” and “manage real estate in
any manner considered best,” and to “exercise all other real estate powers necessary to
effect this purpose.”
Lastly, there is no support for Appellants’ assertion of fraudulent concealment with
respect to the disclosure of property in the probate of Mr. McIntyre’s estate. Appellants’
amended complaint/petition for removal of fiduciary did not set forth a specific claim of
20
A21

— Unreported Opinion —
fraudulent concealment and, as a result, that issue is not properly before us.10 Md. Rule 8131(a). For all these reasons, the trial court did not err in granting judgment in favor of
Kevin, individually.
III.
Kevin, as Trustee
Appellants challenge the trial court’s finding that there was “absolutely no basis for
removing” Kevin as the trustee, that he did not engage in any self-dealing, that he operated
in good faith, and that he exercised the rights he was entitled to exercise pursuant to the
Trust instrument At trial, the court made findings as to each count ofAppellants’ amended
complaint/petition for removal of fiduciary. Appellants contend that die court’s findings
with respect to paragraphs 5, 8, 10, 13, 18a, and 18g were erroneous. In addition, they
include in their Brief a series of allegations that Kevin breached his duties as trustee by his
actions and by his failure to act Appellee responds that “virtually all of the Appellant’s

10 Even if the issue were properly before us, Appellants would fare no better. At die
time Mr. McIntyre’s estate was opened in December 2013, virtually all of his property had
been transferred to the Trust In addition, § 2.01 of Mr. McIntyre’s Last Will and
Testament specifically provided for pour-over to the Trust as follows:
I give all of my probate estate, excluding any property over which I have a
power of appointment, after expenses and taxes are paid under this Will, to
the then-acting Trustee of the Charles T. McIntyre Irrevocable Trust dated
September 17,2012 and executed before this Will to be added to the property
of that trusc. I direct that the Trustee administer the property according to the
trust and any amendments made prior to my death.
Accordingly, Appellants failed to establish any damages with regard to their
allegation that Kevin fraudulently concealed property by failing to disclose it at die time
Mr. McIntyre’s estate was probated.
21
A22

— Unreported Opinion —
complaints against [Kevin, as trustee] are within the explicit discretion conferred upon the
Trustee by the Settlor.” We shall address each of Appellants’ contentions seriatim.
A. Court’s Findings with Respect to Specific Paragraphs
Paragraphs 5 and 8
Appellants challenge the trial court’s findings with respect to paragraphs 5 and 8 of
their amended complaint/petition for removal of fiduciary. In paragraphs 5 and 8,
Appellants alleged that Kevin induced Mr. McIntyre to create the Trust and to convey his
house to Kevin. According to Appellants, the evidence established that Kevin and Ms.
Henderson were “guilty of conspiracy to commit fraud, subjecting [Mr. McIntyre] to undue
influence on the day the trust was created.” In support of that argument, they point to
Kevin’s testimony that Ms. Henderson tried to convince Mr. McIntyre to include Vernon
in the Trust and will and that Mr. McIntyre was “agitated” and “angry” after a meeting
with Ms. Henderson.
Appellants assert that their father did not want “any of his property to be an asset of
the trust predeath” and that the trust was unfunded. Appellants point out that die Trust was
established on September 17,2012, but Karen did not withdraw the money for the contract
she entered with Mr. Hart for repairs on Mr. McIntyre’s house until October 12, 2012.
They also complain that the forms completed in conjunction with the filing of die deed for
Mr. McIntyre’s house support their contention that Kevin deeded the house to himself.
Kevin responds that Ms. Henderson’s testimony “overwhelms the fabricated
contention of undue influence.”

22
A23

—Unreported Opinion —
We begin our analysis with the fact that Appellants’ amended complaint/petition for
removal of fiduciary did not set forth a claim for fraud, fraudulent inducement, or
conspiracy. As such, those claims are not properly before us. Md. Rule 8-131(a). To the
extent that the “inducement” referenced in paragraphs 5 and 8 could be viewed as a claim
for fraudulent inducement, the trial court acted properly in granting judgment in favor of
Kevin, as trustee.
We have explained that “[t]he tort of fraudulent inducement ‘means that one has
been led by another’s guile, surreptitiousness or other form of deceit to enter into an
agreement to his [or her] detriment.” Rozen v. Greenberg, 165 Md. App. 665,674 (2005)
(citation omitted). In First Union Nat 7 Bank v. Steele Software Sys. Corp., 154 Md. App.
97 (2003), we stated that in order for a plaintiff to recover in a claim of fraudulent
inducement, it must be shown by clear and convincing evidence:
(1) that the representation made is false; (2) that its falsity was either
known to the [defendant], or the misrepresentation was made with such a
reckless indifference to the truth as to be equivalent to actual knowledge; (3)
that it was made for the purpose of defrauding the [plaintiff]; (4) that [die
plaintiff] not only relied upon the misrepresentation, but had a right to rely
upon it in the frill belief of its truth, and that [the plaintiff] would not have
done the thing from which the injury resulted had not such misrepresentation
been made; and (5) that [the plaintiff] actually suffered damage directly
resulting from such fraudulent misrepresentation.
Id at 134 (citation omitted).
The concept of undue influence frequently arises in the context of inter vivos gifts
and wills. In the context of a will, it has been defined as “physical or moral coercion that
forces a testator to follow another’s judgment instead of his [or her] own.” Moore v. Smith,
321 Md. 347, 353 (1990) (citation omitted). It is not enough to show mere suspicion of
23
A24

— Unreported Opinion —
undue influence, or even that a person had “‘power unduly to overbear the will of a
testator,”’ but rather “‘it must appear that the power was actually exercised, and that by
means of its exercise the supposed will was produced.’” Zookv. Pesce, 438 Md. 232, 249
(2014) (citation omitted). The Court of Appeals has identified the following seven
elements characteristic of undue influence:
1. The benefactor and beneficiary are involved in a relationship of
confidence and trust;
2. The will contains substantial benefit to the beneficiary;
3. The beneficiary caused or assisted in effecting execution of will;
4. There was an opportunity to exert influence;
5. The will contains an unnatural disposition;
6. The bequests constitute a change from a former will; and
7. The testator was highly susceptible to the undue influence.
Moore, 321 Md. at 353. A caveator need not prove die presence of all seven factors, but
we have observed that the first and seventh factors are crucial and appear to be necessary
to a finding of undue influence. Green v. McClintock, 218 Md. App. 336,369 (2014).
Because the record in this case is devoid of evidence that Mr. McIntyre was highly
susceptible to undue influence, we need not discuss each of the seven elements
characteristic of undue influence. Although, for that reason alone, we need not comment
any further on Appellants’ allegation of undue influence, we will offer some brief thoughts
on the trial judge’s findings.
The trial judge explained that Appellants did not introduce any evidence that Kevin
exerted undue influence on Mr. McIntyre. She properly inferred, based on the evidence
presented, that Mr. McIntyre’s decisions with regard to the Trust, and his decision to move

24
A25

— Unreported Opinion —
some of his money from Karen’s reach, were influenced by his displeasure at Vernon11
and Karen’s use of his money for purposes he was not aware of and did not approve. She
did not find that there was any “inducing or cajoling or anything else” on Kevin’s part that
precipitated execution of the Trust. She also noted that the fact that Mr. McIntyre was
present at the bank when Kevin was conducting the banking transactions indicated that he
knew what Kevin was doing. Additionally, the judge highlighted that Mr. McIntyre met
with his attorney outside of Kevin’s presence to discuss the implications of his estate
planning transactions, which suggests that the decisions he made were voluntary.
The trial judge found the allegation that Kevin induced Mr. McIntyre to convey his
house to him unpersuasive for many of the same reasons. The court credited Ms.
Henderson’s testimony that the conveyance was done at her behest and is “a natural
consequence of the decision to have a trust agreement^]” Ms. Henderson testified that Mr.
McIntyre was her client, that she prepared the trust instrument and other documents at his
request, that die assignment of personal property was prepared in consultation with him,
that she reviewed the provisions of the trust instrument with Mr. McIntyre and answered

11 Kevin testified that during meetings with Ms. Henderson to set up the Trust, Ms.
Henderson called in one of her colleagues to witness the proceedings. That step was taken
because there was a concern that Vernon, who was disinherited, might challenge the Trust.
According to Kevin, Ms. Henderson and her colleague took Mr. McIntyre in another room
and spoke with him privately. When they came out, Kevin described his father as
“obviously agitated.” Ms. Henderson told Kevin that she had explained to Mr. McIntyre
the implications of “writing Vernon out of the trust,” and that she “tried repeatedly” to get
him to keep Vernon in the Trust and “to stick with his plan of who his trustees would be.”
Kevin explained that his father “was angry” and that even after the documents were
executed, Mr. McIntyre’s plans regarding Vernon did not change.

25
A26

— Unreported Opinion —
his questions, and that she again reviewed the trust instrument “almost section by section”
at die time the documents were executed.12
The trial court’s finding that neither Kevin nor Ms. Henderson exerted any undue
influence over Mr. McIntyre is clearly supported by evidence that was introduced at trial.
As we noted previously, we will not question the trial judge’s decision to credit evidence
introduced at trial absent a clear abuse of discretion. Accordingly, we find no error in the
trial judge’s findings with regard to Paragraphs 5 or 8 of the amended complaint/petition
for removal of fiduciary.
Paragraph 10
Appellants next contend that the trial judge erred in her findings with respect to
paragraph 10 of the amended complaint, in which Appellants alleged:
10. Under the terms of the trust as of its creation, the only property
specifically directed as trust property was $10.00, within an exhibit of the
trust instrument.
With respect to that paragraph, die trial judge found, based on Ms. Henderson’s
testimony, that, once the trust agreement was executed, “all of Mr. McIntyre’s property

12 Ms. Henderson’s testimony makes clear that she met with Mr. McIntyre, prepared
the Trust instrument and deed at his request, and that the house was to become property of
the Trust. Appellants’ assertion that the Trust was unfunded is unsupported by the record.
Ms. Henderson acknowledged that there were some errors on the forms that were
completed in conjunction with the recordation of the deed. Although one form indicated
that the house was being conveyed “father to son” and another indicated that Kevin, as
trustee, was the grantee, Ms. Henderson explained that these were mistakes and that the
forms were not “capable of dealing with” irrevocable trusts. The court was free to credit
Ms. Henderson’s testimony. Moreover, the house was, in fact, conveyed to Kevin, as
trustee, and later sold. Thereafter, the proceeds from die sale were deposited into a Trust
account.
26
A27

— Unreported Opinion —
became property of the trust.” The judge relied on ET § 14-402, stating that “the trustee
holds title to the trust property but once that trust is created the title shifts and the trustee
holds property.”
Section 4-404 which pertains to creation of the trust indicates a person
may create a trust by transferring property in writing to another person. If
the document transfers property in a legally recognized manner and, one,
identifies die recipient of the property as the trustee. Two, identifies the
beneficiary of the trust. And, three, identifies the properties being transferred
under the Maryland Discretionary Trust Act.
A trust is created by written declaration. If it identifies the property
to be held in trust, identifies the beneficiary of the trust, identifies the
declarant as trust and tide holder and identifies the property as being held in
trust under the Maryland Discretionary Trust Act. So whether one looks at
the trust document itself or whether one looks at the transfer document with
respect to what property, mainly the home, the satisfaction of that
requirement is just met by doing the act which was done. So, the Court does
not find and did not receive any legal support for the theory that certain things
have to be done. You have to take certain steps, that just is not found in any
law that I was able to find and certainly no one was provided to me. So,
paragraph 10 was not proven by a preponderance of the evidence.
Appellants complain that the trial court gave more weight to Ms. Henderson’s
testimony than to the language of the Trust instrument. To the extent that Appellants ask
us to re-weigh the evidence that was presented to the trial court and come to a different
conclusion, we cannot. The relative weight to give evidence is committed to the sound
judgment of the trial court. Petrini v. Petrini, 336 Md. 453,473 n.14 (1994).
Appellants also maintain that the only property identified to be transferred to the
Trust was the ten dollars in cash listed on Schedule A, which was attached to the Trust
instrument. That assertion is not supported by the evidence. The Trust clearly included
property in addition to the ten dollars used to establish it Ms. Henderson testified, and
27
A28

— Unreported Opinion —
indeed Appellants’ Exhibit 15 shows, that on the same date that the Trust instrument was
executed, Mr. McIntyre executed an Assignment of Personal Property, transferring all of
his “right, title, and interest in all of [his] tangible personal property” to Kevin, as trustee.
Also, on the same day the Trust instrument was executed, Mr. McIntyre executed the deed
that was eventually recorded, transferring his home to Kevin, as trustee. Finally, Mr.
McIntyre’s bank accounts were transferred into Trust accounts during his lifetime.
Appellants failed to offer proof that anything more was required. Accordingly, we find no
error in the trial court’s findings of fact with regard to paragraph 10.
Paragraph 13
In paragraph 13 of their amended complaint, Appellants alleged that:
13. On September 27, 2012, using his above-referenced power of
attorney, Kevin liquidated certain CDs, and withdrew $295,045.52 from [Mr.
McIntyre’s Bank ofAmerica] account, and deposited it into one ofdie abovereferenced new [Bank of America] trust accounts.
Appellants complain that the trial court did not make specific findings of fact
concerning this allegation. Kevin acknowledged that he used his power of attorney to
transfer funds from his father’s bank accounts to newly opened trust accounts. Appellants
argue that trust documentation was required to fund the Trust, that Kevin’s transfer of funds
was contrary to the terms of the trust and in violation of § 14.5-808(b)(l) of the Estates and
Trust Article, and that “nowhere in die trust agreement does it stipulate that Kevin had the
authority to fund trust accounts with the specific amount of $295,045.52.” We are not
persuaded.

28
A29

— Unreported Opinion —
Consistent with the purpose of the Trust, Kevin deposited all ofthe challenged funds
into the Trust accounts. Section 14.5-808(b) pertains to advisors who are given powers to
direct, consent to, or disapprove decisions of a trustee. That section does not apply here.
Kevin was appointed trustee of Mr. McIntyre’s irrevocable trust Even if Kevin had not
transferred his father’s money into Trust accounts, the money would have ended up in the
same place by virtue of the pour-over provision in Mr. McIntyre’s will.13 Lastly, we point
out that Appellants failed to establish that they were harmed in any way as a result of
Kevin’ s transfer of money into the Trust accounts.
Paragraph 18a
In paragraph 18a of the amended complaint, Appellants allege that:
18. During the period of administration of the trust, and subsequent
to the death of the Settlor, Kevin, sometimes in concert with his
brother/defendant Ronald, has engaged in misconduct inconsistent with his
duties as fiduciary, including, but not limited to a. Failing and refusing to expeditiously liquidate the trust corpus, and
distribute to beneficiaries (or, in the case of Edmond, his personal
representative). Trust paragraph 6.03 [sic][.]
Appellants assert that the trial court’s finding that the house was a hold-up to closing
this estate was “not supported by evidence presented by way of the trust agreement and the
deed transfer” because the house was never supposed to become an asset ofthe Trust They
maintain that Trust funds should not have been used to repair and improve die house and

13 A pour-over provision in a will assures that anything that is titled in die name of
the testator at die time of death instead of the trust “pours over” into the trust, so that all
remaining property ultimately ends up in the trust.
29
A30

— Unreported Opinion —
that Kevin transferred funds into the joint checking account held with Ronald for the
purpose of making improvements to the house.
We observe that, to the contrary, the deed transferring the house to Kevin, as trustee,
was signed on the same day as the Trust instrument and was recorded. The undisputed
evidence established that Kevin, after consulting with real estate professionals, decided
that the house should be improved in anticipation of sale. Section 10.16 of die Trust
instrument gave Kevin, as trustee, the power to, inter alia, alter, improve, and sell “and in
general deal in and with real property in the manner and on the terms and conditions” he
desired. In addition, Kevin, as trustee, was authorized to “manage real estate in any manner
considered best, and may exercise all other real estate powers necessary to effect this
purpose.” The parties do not dispute that there was a partial distribution in 2015, which
Appellants accepted. Kevin, as trustee, has been unable to make a final distribution. We
perceive no error in the trial judge’s findings “that the one hold-up to closing this estate
was the condition of the houseQ” and that Kevin was within his rights as trustee to convert
the house back to a single-family dwelling and remodel the entire house to prepare it for
sale.
Paragraph 18g
In paragraph 18g of the amended complaint, Appellants alleged that Kevin, as
trustee, engaged in misconduct inconsistent with his duties as fiduciary by “[fjailing and
refusing to provide any accounting to the beneficiaries, as would have been required under
trust paragraph 9.11 as well as by Maryland law[.]” Appellants maintain that Kevin failed

30
A31

— Unreported Opinion —
to provide an accounting as required by Section 9.11 of the Trust, which provides, in
relevant part:
My Trustee must make the trust’s financial records and documents available
to beneficiaries at reasonable times and upon reasonable notice for
inspection. My Trustee is not required to furnish any information regarding
my trust to anyone other than a beneficiary. My Trustee may exclude any
information my Trustee determines is not directly applicable to the
beneficiary receiving the information.
The trial court found, by a preponderance of the evidence, that Kevin did not fail or
refuse to provide an accounting. The trial judge noted that “with the exception of working
on the house” nothing more was going to happen with the Trust, so “there was little more
to report.” Although Karen and Carolyn were unsatisfied with the accounting Kevin
provided, the judge found that it was reasonable. The judge went on to say:
I think [Ronald] probably waxed the most eloquent... because he said,...
what’s reasonable is pretty much in the eye of the beholder. One person may
believe it’s reasonable, one may not But, he also indicated that family
dynamics certainly played a role in the level of communication between the
parties and the willingness to communicate between the parties[.]
. . . Certainly by the time of discovery in this case, everything had been
provided.
The record supports the trial court’s finding that Kevin did not fail to provide an
accounting and, although he did not provide supporting documentation until discovery,
everything was provided to Appellants. It is unclear what more they are seeking.
B. Alleged Breach of Trust
Appellants include in their Brief a series of allegations that Kevin, as trustee,
violated the duty of trust he owed to the beneficiaries by failing to act as follows:

31
A32

— Unreported Opinion —
1. Kevin did not create The Principal Residence Trust and the Nongrantor
Trust instruments, as required under Sections 1.01 and 5.03 of the trust
agreement.
2. After Settlor’s death, Kevin did not distribute to Karen and Carolyn thenshares “outright and free of trust,” as mandated in Article 6, Sections 6.02
and 6.05.
3. Kevin did not create a trust for Edmond after Settlor’s death, as prescribed
in Section 2.02 of the will.
4. After Edmond’s death, Kevin did not distribute Edmond’s share of the
trust to the remaining beneficiaries as required in Section 6.03 of the trust.
5. Kevin failed to provide Karen die accounting she requested in her
November 30, 2012 certified letter, as required by Maryland Code 14.5813(a).
6. Kevin failed to comply with Karen [sic] demand for the accounting
mandated in Section 9.11 of the trust agreement, when she refused to accept
the stipulations in his November 19,2016 email.
7. Kevin failed to comply with the accounting requested by Plaintiffs’
counsel, in the May 2017 letter.
Appellants also include a summary of “evidence presented at trial” which they claim
“demonstrated that Kevin did breach his duties as trustee both by reason of action and by
reason of a failure to act.”
Kevin responds that the untimely death of the parties’ father rendered Sections 1.01
and 5.03 of the trust agreement moot. He also notes that Edmond died before the provision
regarding his trust had to be implemented, and, in any event, there was a guardianship in
place to protect his property. With regard to the various contentions that he failed to
provide accountings, Kevin notes that he provided all of the documents for inspection at

32
A33

— Unreported Opinion —
pre-trial discovery, which was an appropriate response given the “history and threat of
litigation in this case.”
The applicable statute, ET § 14.5-901, defines breach of trust as follows:14
(a)(1) A violation by a trustee of a duty the trustee owes to a beneficiary is a
breach of trust.
(2) A breach of trust under this subsection may occur by reason of an
action or by a failure to act.
With respect to alleged breaches of trust by Kevin, Appellants, relying on ET § 14.5808(b)(l)(ii),15 claim that Kevin used his powers as trustee to: 1) transfer title of Mr.

14 The remedy for breach of trust is established by ET § 14.5-901(b), which
provides:
(b) To remedy a breach oftrust by die trustee that has occurred or may occur,
the court may:
(1) Compel the trustee to perform the duties of the trustee;
(2) Enjoin the trustee from committing a breach of trust;
(3) Compel the trustee to redress a breach oftrust by paying money, restoring
property, or other means;
(4) Order a trustee to account;
(5) Appoint a special fiduciary to take possession of the trust property and
administer die trust;
(6) Suspend the trustee;
(7) Remove die trustee as provided in § 14.5-706 of this tide;
(8) Reduce or deny compensation to the trustee;
(9) Subject to § 14.5-909 of this subtide, void an act of the trustee, impose a
lien or a constructive trust on trust property, or trace trust property
wrongfully disposed of and recover the property or proceeds from the
property; or
(10) Order other appropriate relief.
15 Section 14.5-808(b)(l) governs advisers given powers to direct, consent to, or
disapprove decision of a trustee. It provides:

33
A34

— Unreported Opinion —
McIntyre’s house to himself; 2) transfer funds from the trust to a personal joint checking
account he held with Ronald and illegally give Ronald access to trust funds; and 3) list
Vernon as an heir of the estate in violation of Mr. McIntyre’s will. Appellants also accused
Kevin of peijury in giving testimony that “he never sought to make Vernon an heir of the
estate.”
Some of the specific allegations raised in Appellants’ Brief were the subject of
paragraph 18 of their amended complaint/petition for removal of fiduciary or were
otherwise raised below and addressed by die trial court

We note, however, that

Appellants’ amended complaint/petition for removal of fiduciary did not reference either
ET § 14.5-901 or ET § 14.5-808(b)(l)(ii).16 Because this issue does not “plainly appear[]
by the record to have been raised in or decided by the trial court” we will not address it on

(b)(l )(i) Except as provided in paragraph (2) of this subsection, if the terms
of a trust confer on one or more persons, other than the setdor of a revocable
trust, a power to direct, consent to, or disapprove the actual or proposed
investment decisions, distribution decisions, or other decisions of die trustee,
the persons shall be considered advisers and fiduciaries that, as such, are
required to act reasonably under the circumstances with regard to the
purposes of the trust and the interests of the beneficiaries.
(ii) The trustee may not act in accordance with an exercise of the power if:
1. The attempted exercise is manifesdy contrary to the terms of the trust,
unless expressly waived in writing by the setdor; or
2. The trustee knows the attempted exercise would constitute a breach of
a fiduciary duty that the person holding the power owes to the beneficiaries
of the trust.
16 Count I of appellants’ amended complaint/petition for removal of fiduciary
specifically referenced ET § 15-112, dealing with the grounds and procedures for the
removal of a fiduciary, and Md. Rule 10-7112(b) [sic]. Maryland Rule 10-712 also
addresses the removal of a fiduciary.

34
A35

—Unreported Opinion —
appeal. See Md. Rule 8-131(a). With that in mind, we turn to appellants’ contentions of
breach of trust.
1. Breach of Trust by Failure to Act
Creation of Principal Residence Trust and Nongrantor Trust
Appellants contend that Kevin failed to create die Principal Residence Trust and the
Nongrantor Trust under Sections 1.01 and 5.0317 of the Trust document. Kevin does not
dispute this allegation. Nor does he dispute the fact that the Trust was created on
September 17,2012, and that Mr. McIntyre died die following month, on October 27,2012.

17 Section 1.01 of die Trust document, which identifies die Trust, provides, in part,
as follows:
My principal Residence must be held according to the Principal Residence
Trust provisions. All other assets of my trust must be held according to the
Nongrantor Trust provisions. This is so, even ifthe title of the asset identifies
die other sub-trust
Article Five of the Trust document governs administration of the Trust during Mr.
McIntyre’s lifetime. Section 5.02 provides:
During my lifetime, my Trustee shall administer my Principal Residence as
follows:
(a) No Rental or Principal Residence
My Trustee may not rent or lease my Principal Residence to anyone.
(b) Sales Proceeds of Principal Residence
Upon sale of my Principal Residence, the proceeds immediately become the
property of the Nongrantor Trust and shall be held and administered by those
provisions.
Section 5.03 of the Trust document sets forth Mr. McIntyre’s intent as to estate
inclusion and grantor trust status. Section 5.04 provides that upon Mr. McIntyre’s death,
“the interests of the lifetime beneficiaries shall terminate, and my Trustee shall administer
the remaining trust property as provided in the Articles that follow.”
35
A36

— Unreported Opinion —
The trial court found nothing improper about the handling of the sale of the house. The
court found that there is “absolutely no basis for the complaint” against Kevin, and “no
basis to remove him as trustee.” Appellants failed to direct our attention to any evidence
to show that the trial court’s findings were in error. Moreover, the plain terms of the Trust
document make clear that Mr. McIntyre’s death rendered the provisions referenced by
Appellants moot
Distribution of Shares Outright and Free of Trust
Ms. Henderson explained that the provision in Section 6.02 of the Trust, that the
trustee shall distribute Carolyn and Karen’s shares “outright” and “free of trust” meant that
“once the trustee has completed administration of the trust, making sure all the expenses
are paid,” then he would make distributions,

The court credited Ms. Henderson’s

testimony. As we have already discussed, the decision to renovate the house in anticipation
of its sale was Kevin’s to make. There is no dispute that Kevin made a partial distribution
in 2015, and Appellants accepted it Kevin attempted to make a final distribution, but
Appellants refused to sign the release Kevin rightfully requested. Kevin, as trustee, was
unable to make a final distribution, in part because of Appellants’ litigation of the instant
case. The trial court determined that Kevin’s decision to request the court assume
jurisdiction over the Trust was reasonable under the circumstances, which include not only
the instant case, but prior litigation by Appellants, and we find no error in that conclusion.
Edmond’s Share of the Trust
Appellants assert that, after Mr. McIntyre’s death, Kevin failed to create a trust for
their brother Edmond, who suffered from a mental illness, and failed to distribute
36
A37

— Unreported Opinion—
Edmond’s share of the Trust upon his passing. Kevin acknowledged that he did not create
such a trust prior to Edmond’s death and testified that Edmond’s share remains in the Trust.
The trial court specifically found that Appellants did not prove by a preponderance of the
evidence that Karen was the personal representative of Edmond’s estate. Appellants, in
their individual capacities, do not have standing to make arguments on behalf of Edmond.18
Even assuming that either Karen or Carolyn had standing, the trial court properly found
that Kevin has not been able to make a final distribution in part because of Appellants’
litigation.
Failure to Provide Accountings
In their fifth, sixth, and seventh allegations, Appellants allege that Kevin committed
a breach of trust by failing to provide accountings that were requested in 2012,2016, and
2017. The trial judge specifically found that Kevin “provided the accounting,” that “he did
report an accounting to this Court’s satisfaction,” and that she “did not find there was a
failure to provide an accounting.” The court also noted that “[cjertainly by the time of
discovery in this case, everything had been provided.” There is absolutely nothing before
us to suggest that the trial court’s findings are erroneous.

18 «< Generally,

whether a party has standing to sue depends on whether that party
has an actual, real and justiciable interest susceptible of protection through litigation.’ A
person has “standing in the sense that [he or she] is entitled to invoke the judicial process
in a particular instance.” Howard v. Montgomery Mut. Ins. Co., 145 Md. App. 549, 556
(2002) (internal citations omitted).
37
A38

— Unreported Opinion —
JUDGMENTS OF THE CIRCUIT COURT
FOR BALTIMORE CITY AFFIRMED;
COSTS TO BE PAID BY APPELLANTS.

!

39
A40

i

* IN THE

KAREN V. MCINTYRE, etal.

* CIRCUIT COURT

Plaintiffs
v.

* FOR

KEVIN L MONTYRE, etaL

* BALTIMORE CITY
* CASE NO.: 24-C-17-003720

Defendants

ORDER
This matter having come before the Court for trial, the court having
conducted proceedings on August 22,2018 and August 23,2018, and the court
having issued its findings and ruling on the record on August 24,2018, it is this
24th day of August 2018, by the Circuit Court for Baltimore CHy, Part 05:
FOUND that by court order dated January 10,2018, this matter was
consolidated with the Matter of the Petition of Charles T. McIntyre, filed under
Case No. 24-C-17-003638; and it is further
ORDERED, for the reasons stated on the record in open court, that
Defendants' oral Motion for Judgment, offered on the record in open court on
August23,2018, is granted as to Defendant Ronald E. McIntyre, and granted as to
Defendant Kevin L McIntyre in his individual capacity; and it is further
ORDERED that Plaintiffs' request that the court remove Defendant Kevin L.
McIntyre, as trustee of the Charles T. McIntyre Irrevocable Trust and appoint a
substitute trustee, is denied, this court having found no factual or legal basis to
undertake such action; and it is further

A41

7

ORDERED that Plaintiffs’ request that the court appoint an auditor or
examiner is denied; and it is further
ORDERED that Plaintiffs’ request that the court order an equitable
accounting is denied; and it is further
ORDERED that Plaintiffs' request for an award of compensatory and
exemplary damages to denied; and it to further
ORDERED, that as respects Plaintiffs’ Amended Complaint/Petition for
Removal of Fiduciary filed on March 27,2018 (No. 18000), judgment to entered
in favor of Defendant Kevin McIntyre, as Trustee of the Charles T. McIntyre
Irrevocable Trust; and it to further
ORDERED, for the reasons stated on the record in open court, that
Plaintiffs' request for an award of attorneys’ fees, is denied; and it to further
ORDERED, for the reasons stated on the record in open court, that as
respects the Matter of the Petition of Charles T. McIntyre, the Petition for
Assumption of Jurisdiction ofTrust (No. 1000), isgranted; and it to further
ORDERED, pursuant to Md. Code. EsL & Trusts. §14.5-201, this court
assumes jurisdiction over the Charles T. McIntyre Irrevocable Trust; and it to
further
ORDERED, pursuant to Md. Code. Est.& Trusts, §14.5-201. that no later
than October 26.2018, Defendant Kevin L. McIntyre, as trustee, along with his
2

A42

counsel, shall meet with Plaintiffs and their counsel, in order to provide to
Plaintiffs a final accounting and any supporting documents pertaining to the
accounting that were not provided prior to August 24,2018 and that support any
changes in the most recent accounting provided to Plaintiffs; and it is further
ORDERED that no later than November 6,2018, Defendant Kevin L.
McIntyre, as trustee, shall file the final accounting with the Clerk of Court, and
submit to the undersigned judge a courtesy copy of the final accounting; and it is
further
ORDERED, that should this court deem it necessary, the court will
schedule a final hearing in this matter to address distribution of the remaining
trust assets; and it Is further

TRUE COPY

ORDERED that Pial

MAkii vx

cc:

!

Bryant

Clerk, please send via U.S. Mail to Ronald E. McIntyre
All other parties served in open court

3

A43

KAREN V. MCINTYRE, et al.

!
|

*

IN THE

*

COURT QF APPEALS

*

OF MARYLAND

*

PetitionDocket No. 287
September Term* 2020

v.

*
*

(No. 2085, Sept. Term, 2018
Court otSpecial Appeals)
' 'v:'

*

KEVIN L. MCINTYRE, et al.

:r.

(No. 24rC-17-003tiOi Circuit
Court for Bahiraore City)

i

ORDER
Upon consideration of die petition for a writ of certiorari to die Court of
Special Appeals filed in the above^captioned case, it is this 20th day of November. 2020

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it
is hereby, DENIED as diere has been no showing that review by certiorari is desirable and
in the public interest.

/s/ Mary Ellen Barbera
Chief Judge

A44

